                               UNITED STATES DEPARTMENT OF EDUCATION
                                                    OFFICE OF INSPECTOR GENERAL

                                                                                                Evaluation and Inspection Services

                                                                                                                  Control Number
                                                                                                                  ED-OIG/X13J0003
                                                            May 24, 2010
Dr. Sylvia Manning
President
The Higher Learning Commission
30 North LaSalle Street, Suite 2400
Chicago, Illinois 60602-2504

Dear Dr. Manning:

This final management information report entitled, Review of The Higher Learning Commission
of the North Central Association of Colleges and Schools’ Standards for Program Length,
presents the results of our inspection.

The objectives of our review were to determine: (1) what guidance The Higher Learning
Commission (HLC) of the North Central Association of Colleges and Schools provides to
institutions regarding program length and credit hours, (2) what guidance HLC provides to peer
reviewers to assess program length and credit hours when evaluating institutions, and (3) what
documentation HLC maintains to demonstrate how it evaluates institutions’ program length and
credit hours. We found that HLC does not have an established definition of a credit hour or
minimum requirements for program length and the assignment of credit hours. The lack of a
credit hour definition and minimum requirements could result in inflated credit hours, the
improper designation of full-time student status, and the over-awarding of Title IV funds because
the U.S. Department of Education (Department) provides Title IV funding to students based on
the number of credit hours assigned to the courses the students take.

During the course of our review, we identified a serious issue regarding HLC’s decision to
accredit American InterContinental University (AIU) despite its identification of problems with
AIU’s assignment of credit hours to certain undergraduate and graduate courses. HLC’s decision
to accredit AIU despite these problems calls into question whether the accrediting decisions
made by HLC should be relied upon by the Department. We issued an Alert Memorandum to
the Department’s Office of Postsecondary Education (OPE) entitled, The Higher Learning
Commission of the North Central Association of Colleges and Schools’ Decision to Accredit
American InterContinental University (ED-OIG/L13J0006). We recommended that OPE
determine whether HLC is in compliance with 34 C.F.R Part 602 and, if not, take appropriate
action under 34 C.F.R. Part 602 to limit, suspend, or terminate HLC’s recognition by the
Secretary.

In its response to our draft management information report, HLC stated that it did not agree with
the conclusions in our report and raised two issues of concern— our understanding of credit
hours and program length in higher education and our characterization of AIU’s accreditation.
We have summarized and responded to HLC’s comments after the Results section of this report
and we have attached HLC’s comments in their entirety.


 The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                   excellence and ensuring equal access.
                                            BACKGROUND


Accrediting agencies are private educational associations that develop evaluation criteria and
conduct peer evaluations of institutions of higher education to ensure that the education provided
by these institutions meets acceptable levels of quality. The Department does not determine the
quality of education funded by Federal education dollars. Instead, the Secretary of Education is
required by statute to publish a list of accrediting agencies recognized by the Secretary as
reliable authorities for determining the quality of education at the institutions of higher education
they accredit. In order for an accrediting agency to be recognized by the Secretary of Education,
it must submit an application for recognition. Under 34 C.F.R. § 602.16(a) (2009), an
accrediting agency is required to demonstrate that it has standards for accreditation that are
“sufficiently rigorous to ensure that the agency is a reliable authority regarding the quality of the
education or training provided by the institutions or programs it accredits.” The agency meets
this requirement if its accreditation standards effectively address the quality of the institution or
program in 10 areas, including curricula, measures of program length, and the objectives of the
degrees or credentials offered.

In 2008, there were 7 regional accrediting agencies that accredited 2,897 institutions of higher
education. These institutions received $74.8 billion in Title IV funding. 1 The Higher Learning
Commission2 of the North Central Association of Colleges and Schools accredits 1,022
institutions in Arizona, Arkansas, Colorado, Iowa, Illinois, Indiana, Kansas, Michigan,
Minnesota, Missouri, North Dakota, Nebraska, Ohio, Oklahoma, New Mexico, South Dakota,
Wisconsin, West Virginia, and Wyoming. In 2008, institutions accredited by HLC received
$27.5 billion of the $74.8 billion in Title IV funding. The Department provides Title IV funding
to students based on the number of credit hours assigned to the courses the students take.

HLC has five Criteria for Accreditation that an institution must meet in order to merit
accreditation. In HLC’s Handbook of Accreditation, Third Edition (Handbook), each Criterion
has three elements: a criterion statement, core components, and examples of evidence. The
criterion statement defines the necessary attributes of an organization accredited by HLC. The
core components are identified by HLC as items that must be addressed by an institution as it
presents evidence of meeting a Criterion. Each criterion statement and core component is
followed by explanatory information that offers additional guidance. The examples of evidence
are illustrative examples of the specific types of evidence that an institution might present in
addressing a core component.

An institution seeking initial accreditation or reaccreditation submits a self-study report (self-
study) that serves as its formal argument that it satisfies the Criteria for Accreditation. HLC may
1
  Title IV of the Higher Education Act of 1965, as amended, provides federal student financial aid through the
Federal Stafford Loan, the PLUS Loan, the Federal Perkins Loan, the Federal Pell Grant, the Academic
Competitiveness Grant, the National Science & Mathematics Access to Retain Talent Grant, the Federal
Supplemental Educational Opportunity Grant, and Federal Work Study programs.
2
  HLC accredits degree-granting higher learning institutions and is one of two commissions to hold membership in
the North Central Association of Colleges and Schools.

                                                        2
apply sanctions if an affiliated institution is in jeopardy of not meeting one or more of the
Criteria. HLC’s Peer Review Corps, consisting of professionals in higher education, evaluates
institutions for compliance with the Criteria for Accreditation and documents findings and
recommendations in team reports.

In 2002, the Office of Inspector General (OIG) issued a final management information report
entitled, North Central Association of Colleges and Schools’ Accreditation Standards for Student
Achievement and Program Length (ED-OIG/A09-C0016). The review found that HLC’s
standards that encompass student achievement and program length were general and did not
include specific measures to be met by institutions. The report stated that, as a result, HLC’s
established standards inherently limited the agency’s ability to compare institutional performance
and distinguish between compliant and noncompliant institutions. We suggested that HLC
develop standards that are sufficiently concrete and specific to permit it to determine whether an
institution is compliant or noncompliant; describe the Carnegie formula 3 in written guidance and
explicitly state that institutions should use this method or submit written justification of any
deviation; and provide guidance on documenting deviations from the Carnegie method. HLC did
not concur with our conclusions or our suggestions.



                                         REVIEW RESULTS


The objectives of our review were to determine: (1) what guidance HLC provides to institutions
regarding program length and credit hours, (2) what guidance HLC provides to peer reviewers to
assess program length and credit hours when evaluating institutions, and (3) what documentation
HLC maintains to demonstrate how it evaluates institutions’ program length and credit hours.
We found that:

        •    HLC provides general guidance informing institutions that they should be able to
             justify the lengths of their programs and their credit hour assignments in comparison
             to practices common to other accredited higher education institutions; however,
             HLC’s standards for accreditation, including the Criteria for Accreditation, core
             components, and HLC policies, do not establish the definition of a credit hour or set
             minimum requirements for program length and the assignment of credit hours;
        •    HLC does not provide specific guidance to peer reviewers on how to evaluate the
             appropriateness of an institution’s processes for determining program length and
             assigning credit hours or on the minimum level of acceptability for accreditation
             when evaluating these processes; and
        •    HLC maintains self-studies and team reports as documentation of its evaluation of
             institutions’ program lengths and credit hours, but the amount of information related

3
  The Carnegie formula provides the standard unit of measuring credit in higher education, whereby one credit hour
generally consists of one hour of classroom work and two hours of outside preparation over the course of the
academic term. “One hour of classroom work” is defined as 50 to 60 minutes. Under this method, a full-time student
in an education program using a semester, trimester, or quarter system would have a workload of 36 hours per week
through the academic term (12 hours of classroom work and 24 hours of outside preparation per week).

                                                        3
            to program length and credit hours that institutions and peer reviewers included in
            these respective documents varied.

We also identified a serious issue regarding HLC’s decision to accredit AIU despite its
identification of problems with AIU’s assignment of credit hours to certain undergraduate and
graduate courses.

Issue No. 1        HLC Guidance to Institutions on Program Length and Credit Hours

We found that HLC provides general guidance informing institutions that they should be able to
justify the lengths of their programs and their credit hour assignments in comparison to practices
common to other accredited higher education institutions; however, HLC’s standards for
accreditation, including the Criteria for Accreditation, core components, and HLC policies, do
not establish the definition of a credit hour or set minimum requirements for program length and
the assignment of credit hours.

The document entitled, “Overview of the Commission’s Approach to Reviewing Credits and
Program Length” (Overview of HLC’s Approach) 4, states that HLC’s standards on program
length and credit hours are: Criterion Three - Student Learning and Effective Teaching (Criterion
Three); Core Component 3a; Policy 3.10 - Credits, Program Length, and Tuition (Policy 3.10);
and Eligibility Requirement #9.

Criterion Three and Core Component 3a
In the Handbook, the criterion statement for Criterion Three states, “[t]he organization provides
evidence of student learning and teaching effectiveness that demonstrates it is fulfilling its
educational mission.” The explanatory information for Criterion Three in the Handbook states
that Criterion Three emphasizes the evaluation of evidence concerning student learning. The
criterion statement and explanatory information for Criterion Three do not directly address
program length and credit hours.

In the Handbook, Core Component 3a states, “[t]he organization’s goals for student learning
outcomes are clearly stated for each educational program and make effective assessment
possible.” The Overview of HLC’s Approach states that Core Component 3a in the Handbook
explains that there should be a clear connection between institutions’ options for program length
and credit hours, and the need for institutions to set clear educational goals through which they
can document the learning of students, regardless of a program’s length or format. We found
that in the Handbook, the explanatory information for Core Component 3a addresses program
length and credit hours, but Core Component 3a does not establish the definition of a credit hour,
minimum requirements for program length, or standards for the content and rigor of courses at
the postsecondary level to ensure the appropriate assignment of credit hours.




4
  HLC provided us with a document entitled, “Overview of the Commission’s Approach to Reviewing Credits and
Program Length” during the course of our inspection. This document outlined HLC’s role in accreditation, HLC’s
standards related to program lengths and credit hours, and HLC’s guidance to institutions.

                                                       4
In the Handbook, the explanatory information for Core Component 3a states:

       Learning occurs in a variety of settings and at various stages of life. Significance should
       be placed on evidence that is provided to show what a student has learned and what
       he/she can do because of the learning. Such an understanding provides a framework in
       which a variety of learning experiences—such as compressed or accelerated degree
       programs, learning in asynchronous settings, and engaging in reflected learning—can be
       evaluated. In particular, the Commission [HLC] expects institutions offering courses in
       accelerated, asynchronous, or other nontraditional formats to be especially diligent in
       documenting that students achieve the mastery of skills, competencies, and knowledge
       expected in established courses or traditional curricula or in keeping with predetermined
       learning outcomes.

       Regardless of the circumstance, the credit hour remains an important means of
       quantifying study and learning and a mechanism by which institutions accept completed
       courses in transfer or assess and recognize prior learning. Higher education today
       requires new approaches to the way credit hours are assigned and awarded. The
       traditional Carnegie formula based heavily on the amount of seat time associated with a
       purported learning experience does not address current learning situations. How much
       students study inside or outside of formal classes, expectations associated with the
       course, student preparation, cogency of the learning experience, and pedagogical methods
       all contribute to the significance of a learning experience. Therefore, the Commission
       [HLC] does not expect every institution to follow the traditional Carnegie formula, but it
       does require institutions that base their credit hour assignments on other factors to have
       policies that explain and justify how they consistently reach sound decisions about how
       to recognize college learning.

The explanatory information for Core Component 3a states that credit hours are an important
means of quantifying learning, institutions are required to have policies to explain and justify
how credits hours are assigned to courses, and institutions offering courses in accelerated,
asynchronous, or other nontraditional formats must be “especially diligent” in documenting
students’ achievement comparable to established courses, traditional curricula, or predetermined
learning outcomes. Although the explanatory information for Core Component 3a addresses
program length and credit hours, Core Component 3a does not establish minimum requirements
for program length, the definition of a credit hour, or standards for the content and rigor of
courses at the postsecondary level to ensure the appropriate assignment of credit hours,
especially with regard to programs and courses offered in asynchronous, accelerated, or other
nontraditional formats.

In addition, although the explanatory information for Core Component 3a references the
Carnegie formula, HLC’s Director of Legal and Governmental Affairs stated that the Carnegie
formula is provided as a framework for institutions and is not part of the HLC standard as a
requirement that institutions must follow when assigning credit hours.

Policy 3.10
The Overview of HLC’s Approach states that Policy 3.10 requires institutions to be able to
justify the lengths and credits of educational programs in terms of good practice current in higher
education. Policy 3.10 states:

                                                    5
       The Commission [HLC] shall expect an affiliated institution to be able to equate its
       learning experiences with semester or quarter credit hours using practices common to
       institutions of higher education, to justify the lengths of its programs in comparison to
       similar programs found in accredited institutions of higher education, and to justify any
       program-specific tuition in terms of program costs, program length, and program
       objectives. Affiliated institutions shall notify the Commission [HLC] of any significant
       changes in the relationships among credits, program length, and tuition.

In the explanatory information for Policy 3.10 in the Handbook, HLC states that an institution
that does not use semester or quarter credit hours as the basic measure of its learning experiences
needs to explain in its catalog, student handbook, or self-study how it calculates equivalencies.
Similarly, HLC states in the Handbook that if the total number of credit hours for an institution’s
programs varies from the number commonly found at other accredited institutions, then the
institution needs to explain how the variations are reasonable within good practice in higher
education and that students have learned what students in similar programs have learned. We
found that although Policy 3.10 addresses an institution’s practices for determining program
length and assigning credit hours, the explanatory information for Policy 3.10 in the Handbook
does not establish the definition of a credit hour, minimum requirements for program length, or
standards for the content and rigor of courses at the postsecondary level to ensure the appropriate
assignment of credit hours.

Eligibility Requirement #9
In addition to Criterion Three, Core Component 3a, and Policy 3.10, institutions applying for
initial affiliation with HLC must demonstrate that they meet Eligibility Requirement #9. The
Overview of HLC’s Approach states that this requirement “articulates the important connection
between program length and learning outcomes.” Eligibility Requirement #9 states:

       An organization seeking initial affiliation with the Commission by either accreditation or
       candidacy... will:

                9. Provide students with electronic or print documents that outline educational
                program requirements appropriate in terms of length, content, and required
                learning outcomes for the credential awarded.

Although Eligibility Requirement #9 requires institutions to ensure that students have access to
documents that define program length in either credits earned or competencies demonstrated, it
does not define a credit hour or set specific minimum requirements for program length and the
assignment of credit hours.

HLC Perspective
The Overview of HLC’s Approach states that American higher education is currently
characterized by a broad variety of program length and credit arrangements and that input
measures such as program length and credit hours are of limited power to assess whether
appropriate learning has taken place. The Overview of HLC’s Approach also states that there
has been an effort to replace input measures with measures of learning outcomes. Therefore,
HLC expects institutions to have a process for assessing student learning outcomes and peer
reviewers evaluate institutions’ assessment processes.
                                                   6
Conclusion
Without establishing a minimum acceptable level for program length, credit hours, or student
learning outcomes, HLC cannot ensure that the programs and courses being offered are of
sufficient quality and quantity to be considered postsecondary education at the level represented
to students, especially with regard to programs and courses offered in asynchronous, accelerated,
or other nontraditional formats. In addition, we found that although HLC determines whether
institutions assess student learning outcomes, it does not define a minimum threshold for when
the measures of achievement for student learning outcomes indicate poor educational or
programmatic quality.

Issue No. 2      HLC Guidance to Peer Reviewers on Evaluating Program Length and
                 Credit hours

We found that HLC provides peer reviewers with guidance on program length and credit hours
through the explanatory information for Core Component 3a and Policy 3.10 but does not
provide specific guidance to peer reviewers on how to evaluate institutions’ processes for
determining program length and assigning credit hours. In addition, we found that HLC does not
provide guidance to peer reviewers on the minimum level of acceptability for accreditation when
evaluating institutions’ processes for determining program length and assigning credit hours.

The Overview of HLC’s Approach states that HLC relies on the expertise of peer reviewers to
apply standards such as Core Component 3a and Policy 3.10 within the specific context of an
institution’s mission. HLC’s Director of Legal and Governmental Affairs stated that HLC has a
training program that helps peer reviewers understand the accreditation standards and normalizes
them to HLC’s expectations. HLC provides instructions to peer reviewers through training
documents and the Peer Review Handbook. The 2009 training documents and Peer Review
Handbook outline the policies and procedural steps for peer reviewers but do not provide specific
guidance to peer reviewers on how to evaluate an institution’s processes for determining
program length and assigning credit hours.

One of the 2009 training documents informed peer reviewers that they should evaluate
institutions’ practices for determining program length and assigning credits to courses. With
regard to an institution’s compliance with Policy 3.10, this document advises team chairs to
consider the following:

       1. Does the institution follow required or common practices in assigning degree
          designations for its programs? Do transcripts include semester or quarter credit hour
          equivalencies for courses and programs?

       2. Are the lengths of its programs comparable with similar programs found in other
          accredited institutions of higher education? You may want to be prepared for
          questions about non-traditional institutions that may not, at least on the surface,
          appear to use degree designations we might all recognize or may have program
          lengths that vary somewhat from what is typically considered the norm. The
          Commission [HLC] staff has counseled applying institutions presenting such issues
          that they need to be able to justify to a team and others that these alternate
          designations and program lengths are nevertheless rooted in practices and approaches


                                                  7
           that are readily understood in higher education and that are indicative of sufficient
           academic rigor for the programs being offered.

This document instructs the team chair to evaluate the length of institutions’ programs and credit
hour equivalencies in the context of other comparable institutions of higher education. The
document also instructs the team chair to be prepared to consider non-traditional institutions.
The document does not provide guidance to the team chair on how to determine whether an
institution’s processes for determining program length and assigning credit hours are appropriate,
especially when considering a non-traditional institution that may not have programs or credit
hour designations that are readily comparable to other higher education institutions.

Other training documents and the Peer Review Handbook primarily provide information on the
procedural and logistical steps for site visits and the general responsibilities of peer reviewers.
These documents do not provide guidance to peer reviewers on how to evaluate an institution’s
processes for determining program length and assigning credit hours and do not provide
guidance to peer reviewers on the minimum level of acceptability for accreditation when
evaluating these processes.

HLC Perspective
The President of HLC and HLC’s Director of Legal and Governmental Affairs stated that HLC
relies on the expertise and professional judgment of its peer reviewers. HLC’s perspective on the
peer review process can be found in the Peer Review Handbook, which states:

       Peer Review in accreditation is based on the fundamental assumption that quality in
       higher education is best served through a process that enables peers of the organization,
       informed by standards created and applied by professionals in higher education, to make
       the judgments essential to assuring and advancing the quality of higher learning.

The Overview of HLC’s Approach states that judgment about the appropriateness of an
institution’s program length and credit hours for its educational programming is a “holistic
judgment” made by experts in higher education.

Conclusion
Although HLC relies on the expertise of peer reviewers to evaluate institutions, it does not
provide guidance to peer reviewers on the minimum level of acceptability for accreditation when
evaluating institutions’ processes for determining program length and assigning credit hours.
Without providing guidance to peer reviewers on the minimum level of acceptability for
accreditation, HLC cannot ensure that all peer reviewers evaluate institutions consistently and
appropriately.

Issue No. 3      HLC Documentation to Demonstrate Evaluation of Institutions’ Program
                 Length and Credit Hours

We found that HLC maintains self-studies and team reports as documentation of its evaluation of
institutions’ program lengths and credit hours, but the amount of information related to program
length and credit hours that institutions and peer reviewers included in these respective
documents varied. We reviewed self-studies for a sample of eight institutions to determine

                                                    8
whether these institutions documented their processes for determining program length and
assigning credit hours. 5 We also reviewed team reports for 18 institutions, including the 8
institutions in our sample, to determine whether there was documentation to demonstrate that the
peer reviewers evaluated these processes. 6

Program Length and Credit Hours
Institutions are required to address their compliance with Policy 3.10 under the Federal
Compliance section of the self-study. 7 We found that for three of the eight self-studies in our
sample, institutions did not provide any information to demonstrate compliance with Policy 3.10.
In particular, these institutions did not provide any information equating learning experiences
with semester or quarter credit hours and justifying program lengths in comparison to similar
programs found in accredited institutions of higher education.

The remaining five institutions provided varying levels of information about program length and
credit hours. For example, one institution’s self-study provided specific information about
contact time for traditional courses and credit hour minimums for program length in the Federal
Compliance section. Another institution’s Federal Compliance section stated only that the
institution operates on a semester system using credit hour assignment “common to similar
higher education institutions.” This institution did not explain how credit hours are assigned to
courses or how the assignment of credit hours is comparable to similar programs at other
accredited institutions.

We found that of the 18 team reports, only 2 team reports referenced institutions’ processes for
determining program length and assigning credit hours. For the other 16 team reports, there was
no documentation of peer reviewers’ evaluation of these processes. In particular, there was no
information related to the peer reviewers’ analyses of institutions’ compliance with Policy 3.10.
In some team reports, the only evidence that the peer reviewers may have evaluated institutions’
processes for determining program length and assigning credit hours was one general statement
in the Federal Compliance section of the team report such as, “the [institution] is in compliance
with HLC policies in relation to federal requirements.”

Assessment of Student Learning Outcomes and Curriculum
The President of HLC and HLC’s Director of Legal and Governmental Affairs stated that there is
a connection between program length, credit hours, the assessment of student learning outcomes,
and curriculum. We found that institutions discussed their processes for assessing student
learning outcomes and developing and assessing curriculum in self-studies, but the discussion of
assessment and curriculum in self-studies was not related to institutions’ processes for
determining program length and assigning credit hours.


5
  We reviewed self-studies for six institutions seeking reaccreditation and two institutions seeking initial
accreditation. In addition to the self-studies, institutions may include information in corresponding resource rooms.
At the time of our inspection, HLC did not have access to documentation in the resource rooms for all of the
institutions we reviewed. We reviewed the available documentation from two institutions’ resource rooms.
6
  We reviewed team reports for 10 institutions in addition to the 8 institutions in our sample: 2 institutions requesting
approval for substantive changes to their programs and 8 institutions with candidacy status.
7
  The Handbook states that the Federal Compliance section should be included in either the main body of the self-
study report or in an addendum.

                                                           9
We also found documentation in team reports demonstrating that peer reviewers evaluated
institutions’ processes for assessing student learning outcomes and developing and assessing
curriculum. Similar to the self-studies, however, the discussion of assessment and curriculum in
the team reports did not relate to institutions’ processes for determining program length and
assigning credit hours.

HLC Perspective
HLC’s Director of Legal and Governmental Affairs stated that the amount of information related
to program length and credit hours in the self-studies and team reports varies by institution and
peer review team. HLC’s Director of Legal and Governmental Affairs also described the self-
study as a narrative document and documentation in the resource room as the evidence
supporting the self-study. HLC does not require institutions to submit their self-studies in a
standardized format and permits institutions to provide self-studies focused on selected topics.

HLC also does not require peer reviewers to document all aspects of their evaluation of an
institution. HLC’s Director of Legal and Governmental Affairs stated that the peer review
process is complicated and that, in general, the treatment of evidence in the team report is
minimal. The President of HLC stated that the team report is intended to be readable and that a
team report has the dual purposes of creating a “minimal assurance” of the institution’s quality
for accreditation by HLC and advancing the improvement of the institution. The President of
HLC stated that for these reasons, the team reports tend to focus primarily on addressing
problems the peer reviewers identified at the institution.

Conclusion
HLC allows institutions and peer reviewers the flexibility to decide what information to include
in their self-studies and team reports. This practice results in self-studies that do not clearly
demonstrate how institutions are in compliance with HLC’s standards and team reports that do
not contain complete documentation from peer reviewers’ evaluations of institutions. In
addition, this practice results in self-studies and team reports that do not always correspond with
each other because institutions reference information in the self-studies that is not discussed in
the corresponding team reports and vice versa. The disconnect between the information in the
self-studies and team reports, in addition to the limited accessibility of information in the
resource rooms, makes it difficult to determine institutions’ compliance with HLC standards and
peer reviewers’ analysis when evaluating institutions.

SIGNIFICANT ISSUE REPORTED IN AN ALERT MEMORANDUM

During the course of our review, we identified a serious issue regarding HLC’s decision to
accredit AIU. HLC performed a comprehensive review to evaluate AIU for initial accreditation
and found issues related to AIU’s assignment of credit hours to certain undergraduate and
graduate courses. Specifically, HLC found that AIU’s 9-credit bachelor’s courses are inflated in
credit relative to common practice in higher education. HLC also found that AIU’s graduate
courses seem inflated.

Although the peer review team identified significant problems with AIU’s assignment of credit
hours, HLC granted AIU full initial accreditation with no limitations on the programs it offered

                                                10
at the time of initial accreditation. 8 This decision to grant accreditation to AIU, an institution it
found to have an “egregious” credit policy, is not in the best interests of students and calls into
question whether the accrediting decisions made by HLC should be relied upon by the
Department when assisting students in obtaining quality education through the Title IV
programs.

On December 17, 2009, we issued a final Alert Memorandum to OPE entitled, The Higher
Learning Commission of the North Central Association of Colleges and Schools’ Decision to
Accredit American InterContinental University (ED-OIG/L13J0006). We recommended that
OPE determine whether HLC is in compliance with 34 C.F.R. Part 602 and, if not, take
appropriate action under 34 C.F.R. Part 602 to limit, suspend, or terminate HLC’s recognition by
the Secretary.

OVERALL CONCLUSION

The Department provides Title IV funding to students based on the number of credit hours
assigned to the courses the students take and recognizes accrediting agencies as reliable
authorities on the quality of education provided by the institutions they accredit. HLC states in
the Handbook that credit hours are important measures of student learning and instructs
institutions to have policies to justify how program length is determined and credit hours are
assigned to courses. HLC does not, however, define what constitutes a credit hour for a course at
the postsecondary level or establish minimum requirements for program length or the assignment
of credit hours.

The Overview of HLC’s Approach states that HLC does not consider itself “an inspecting body
that applies a single yardstick or matrix,” but as a reviewing body that assures the public that
academic programming at an accredited institution occurs within the continuum of good practice
in higher education. We found that although HLC expects institutions and peer reviewers to
understand the continuum of good practices for determining program lengths and credit hours, it
does not provide institutions or peer reviewers with guidance on the lowest acceptable threshold
of this continuum. Without this threshold, HLC cannot ensure that the programs and courses
being offered are of sufficient quality and quantity to be considered postsecondary education at
the level represented to students, especially with regard to asynchronous, accelerated, and other
programs delivered through nontraditional formats. HLC’s reliance on an understanding of
“good practice” without establishing minimum requirements for program length and the
assignment of credit hours could result in inflated credit hours, the improper designation of full-
time student status, and the improper awarding of Title IV funds.

HLC accredited AIU although its peer reviewers determined that the institution had significant
problems with its assignment of credit hours. HLC’s accreditation of AIU was not in the best
interests of students and demonstrates the need for HLC to establish a definition of a credit hour
and minimum thresholds for program length and the assignment of credit hours.


8
 HLC has required a focused visit on the issue of credit equivalence at AIU scheduled for the 2010-2011 academic
year. HLC also required AIU to obtain prior approval before initiating any new degree programs, degree sites, or
distance degree programs.

                                                       11
                                     HLC COMMENTS


On February 17, 2010, we provided HLC with a copy of our draft management information
report for comment. We received a copy of HLC’s comments on March 17, 2010. HLC did not
agree with the conclusions in our report and raised two issues of concern— our understanding of
credit hours and program length in higher education and our characterization of AIU’s
accreditation. We have attached HLC’s comments to our report in their entirety.

Credit Hours and Program Length in Higher Education

HLC Comments
HLC stated that the higher education community never developed a precise definition of the
credit hour or quantitative standards defining the credit hour, preferring to rely on the Carnegie
Unit when needed and the integrity and judgment of faculty members. HLC stated that as a
result, the credit hour was always a fluid measure in higher education. HLC also stated that our
report calls for it to adopt a definition of the credit hour and minimum quantitative standards for
program length and the assignment of credit hours because the payment system for Title IV is
structured around the credit hour.

OIG Response
The Department relies on institutions’ accreditation when determining their eligibility for the
Title IV Programs and recognizes accrediting agencies as reliable authorities on the quality of
education for students who receive Title IV funds. HLC’s Handbook states that by being
recognized by the Department as a gatekeeper agency, HLC “agrees to fulfill specific federally
defined responsibilities within the accreditation processes.” According to 34 C.F.R. § 602.16(a)
(2009), one of HLC’s responsibilities as a recognized accrediting agency is to have standards for
accreditation that are “sufficiently rigorous to ensure that the agency is a reliable authority
regarding the quality of the education or training provided by the institutions or programs it
accredits.” HLC’s standards related to program length and credit hours do not have minimum
requirements for program length, the definition of a credit hour, or standards for the content and
rigor of courses at the postsecondary level. Without these minimums or a definition of a credit
hour, HLC cannot ensure that the programs and courses institutions offer are of sufficient quality
and quantity for students receiving Title IV funds.

HLC Comments
HLC stated that faculty members and administrators bring the appropriate expertise necessary for
voluntary self-regulation of higher education. HLC stated that representatives from institutions
of higher education developed the Criteria for Accreditation and determined that a single
definition of a credit hour or quantitative matrix was not an appropriate tool by which to judge
the range of credit hour and program length arrangements offered by institutions. HLC stated
that these representatives determined that with detailed training and the broad standards outlined
by HLC, experienced peer reviewers could make reasonable and informed judgments about the
appropriateness of institutions’ credit and program offerings.


                                                12
OIG Response
HLC’s standards related to program length and credit hours do not have the necessary minimum
requirements to enable peer reviewers to make an objective determination of whether or not an
institution is in compliance with the standards. In addition, as noted in Issue 2, HLC’s 2009
training materials did not provide specific guidance to peer reviewers on how to evaluate
institutions’ processes for determining program length and assigning credit hours and did not
provide guidance to peer reviewers on the minimum level of acceptability for accreditation when
evaluating these processes.

The results of our sample review demonstrated that peer reviewers did not always evaluate the
appropriateness of institutions’ processes for determining program length and assigning credit
hours. Of the 18 team reports we reviewed, only 2 team reports referenced institutions’
processes for determining program length and assigning credit hours. For the other 16 team
reports, there was no documentation of peer reviewers’ evaluation of these processes.

HLC Comments
HLC stated that it takes issue with OIG’s understanding of credits and program length and their
role and value in higher education in 2010. HLC stated that higher education is benefitting from
years of study of how adults learn and thus, how higher education can maximize student learning
through the use of hybrid and other new models of instruction and awarding of credit.

OIG Response
Through our audits, we are familiar with hybrid and other new models of instruction and
awarding credit. 9 Our work has identified questionable methods of awarding credit that concern
us, such as an institution that awarded credit at the rate of one credit per week. 10 As discussed in
our 2002 final management information report (ED-OIG/A09-C0016), HLC’s standards for
program length are general and do not include specific measures to be met by institutions. At
that time, we suggested that HLC develop standards that are sufficiently concrete and specific to
permit it to determine whether an institution is compliant or noncompliant with its standards.
Despite our 2002 report and HLC’s awareness of hybrid and new models of instruction and
awarding credit, HLC still has not developed standards that address the minimum level of
acceptability for programs delivered in nontraditional formats. The development of new models
of instruction and methods of awarding credit does not eliminate the need for HLC to uphold its
responsibility as a Department-recognized accrediting agency to develop rigorous standards for
institutions’ determinations of program length and assignment of credit hours. We recognize that
credit hours do not have to be defined exclusively as time spent in the classroom, but they should
measure the level of instruction and academic engagement offered and expected by an
institution.

HLC Comments
HLC stated that new models of instruction will move higher education away from the old
building blocks to new ones that are just now being identified. HLC stated that the ultimate

9
  We have conducted audits on institutions offering instruction through distance delivery methods and institutions
with alternative methods of assigning credits. See: ED-OIG/A05H0018, ED-OIG/A06H0016, ED-OIG/A05G0017,
ED-OIG/A05H0015, ED-OIG/A06H0009, and ED-OIG/A09F0008.
10
   The institution identified during our audit (ED-OIG/A06H0016) was not accredited by HLC.

                                                        13
measure of the success of these programs should not be outmoded credit hour definitions and
quantitative standards for the assignment of credits hours but the measure of student learning.

OIG Response
Many institutions use credit hours as the primary basis for calculating tuition and the Department
provides Title IV funding to a student based on the number of credit hours assigned to the
courses the student takes. Although HLC asserts in its comments that credit hours are outmoded,
its Handbook states, “Regardless of the circumstance, the credit hour remains an important
means of quantifying study and learning and a mechanism by which institutions accept
completed courses in transfer or assess and recognize prior learning.”

HLC states that program success should be measured by student learning outcomes; however, it
requires institutions only to have processes for assessing student learning outcomes. HLC does
not define a minimum threshold for when the measures of achievement for student learning
outcomes are indicative of poor educational or programmatic quality. Without minimums for
student learning outcomes, HLC cannot ensure that the programs and courses being offered are
of sufficient quality and quantity to be considered postsecondary education at the level
represented to students.

HLC’s Accreditation of AIU

HLC Comments
HLC stated that it takes issue with our characterization of its accreditation of AIU and that its
evaluation of AIU is the best evidence that its approach works.

OIG Response
We would normally use documents provided by the entity under review to respond to the entity’s
comments on our draft report. In this case, information related to HLC’s accreditation of AIU is
contained in the “Report of a Comprehensive Evaluation Visit for Initial Accreditation” (AIU
Team Report) and a report on the May 4, 2009, Review Committee meeting on AIU’s initial
accreditation (Review Committee Report). Although HLC’s Handbook encourages transparency
and many institutions disclose HLC team reports, including those critical of the institution, both
HLC and AIU have requested that we consider these documents confidential. Under HLC’s
procedures, it does not disclose team reports and related materials to the public unless an
institution misrepresents the contents of a team report. 11 Institutions, however, are free to
disclose a team report once HLC has taken final action.

The Freedom of Information Act, 5 U.S.C. § 552(b)(4), protects from public disclosure
“confidential, commercial information” obtained by the government from third parties such as
HLC and AIU. We defer to HLC and AIU’s claims of confidentiality for the AIU Team Report
and Review Committee Report. Except for information that has been separately released by AIU
or HLC, we have not disclosed confidential information from these reports. We have attached
HLC’s comments to our report in their entirety.

11
  HLC’s Handbook and Policy 12.4 (Public Disclosure of the Team Report) state that HLC will make a team report
public if it finds that an organization has misrepresented the contents of the report in public statements or through
the release of selected portions.

                                                         14
HLC Comments
HLC stated that it accredited AIU with a multitude of conditions and limitations, but the
documents prepared by OIG state otherwise.

OIG Response
Our report states that HLC granted AIU full initial accreditation with no limitations on the
programs it offered at the time of initial accreditation. HLC placed no limitations on AIU’s
degree programs, distance degree programs, or degree sites in existence at the time of initial
accreditation. This allows AIU to represent that these programs are accredited despite the
significant findings in the AIU Team Report. HLC did not prevent AIU from continuing to
enroll students in the courses peer reviewers identified as having credit inflation problems and it
did not require AIU to disclose the nature of those problems to students.

HLC Comments
HLC stated that it imposed a “regime” of reports and a focused evaluation on AIU intended to
force the institution to rapidly change its practice related to the awarding of credit hours to its
upper-division online courses.

OIG Response
We did not identify a “regime” of reports required at the time of initial accreditation. HLC
mandated a single, self-study report focused on the issue of credit equivalence in preparation for
a focused visit to be scheduled in the 2010-2011 academic year. HLC did not require any other
reports related to the awarding of credit hours as a condition of AIU’s accreditation.

HLC Comments
HLC stated that it imposed a stipulation on AIU intended to prevent expansion of the institution
into any new degree programs or off-campus activities until the problems with the upper-division
courses were resolved.

OIG Response
HLC’s requirement that AIU receive prior approval before expanding degree programs or off-
campus activities is a standard practice for institutions it accredits and is not a unique stipulation
related to AIU’s credit assignment problems. According to HLC Policy 3.2(d)(2) (Changes in
Educational Offerings) and (3) (Changes in Educational Sites), all institutions accredited by HLC
are required to receive approval from HLC to extend their accreditation to include program
offerings at a new degree level, significant new academic programs or majors that require
substantial financial investment or reallocation of financial resources, degree programs offered
through distance delivery methods, and off-campus instruction sites providing degree programs.

HLC Comments
HLC stated that the restrictions on AIU were publicly displayed on the HLC website for the
institution’s students and company’s investors.

OIG Response
With regard to AIU’s credit awarding policies, HLC’s website states only, “Focused Visit-
Mandated: 2010 - 2011; A visit focused on credit equivalence.” HLC’s website does not provide

                                                 15
any information describing the nature and scope of AIU’s credit assignment problems or provide
the rationale for the mandated focused visit. In addition, it is unclear from this information on
the website that a focused visit is a restriction on an institution.

HLC Comments
HLC stated that the restrictions imposed on AIU were intended to force immediate change at the
institution.

OIG Response
HLC states now that it intended to force immediate change at AIU; however, during our site visit
at HLC in July 2009, HLC’s Vice President, serving as the institutional liaison for AIU, stated
that AIU must be given time to address the credit assignment problems by the focused visit
scheduled for the 2010-2011 academic year. Under this timetable, any follow-up action by HLC
would occur no earlier than the focused visit, which could take place up to two years after the
peer reviewers’ initial identification of the credit inflation problems. 12

We note that AIU’s public statement upon receipt of initial accreditation did not indicate that
accreditation by HLC would result in immediate change to its programs. AIU’s chancellor stated
in a May 18, 2009, press release that “the transition from SACS[ 13] to HLC should be entirely
seamless and not in any way impact AIU’s programs or the daily activities of [its] students,
faculty or staff.”

The AIU Team Report and Review Committee Report discuss the extent to which program
changes may be needed and the possible impact on students and faculty. Although responsive to
HLC’s comments, we do not discuss the contents of those documents here for the reasons
previously noted.

HLC Comments
HLC stated that its evaluation of AIU is the best evidence that its approach works. HLC stated
that even given the lack of a single standardized definition of a credit hour or a quantitative
matrix for the assignment of credit hours, the evaluation team identified a significant problem
with the awarding of academic credit in a small percentage of AIU’s online upper-division
courses.

OIG Response
Although HLC’s peer review team identified the significant problem with AIU’s assignment of
credit hours, the peer review team concluded that AIU met the Criteria for Accreditation and
recommended that HLC grant AIU initial accreditation. HLC does not have minimum
requirements for program length, a definition of a credit hour, or standards for the content and
rigor of courses at the postsecondary level to ensure the appropriate assignment of credit hours,
especially with regard to programs and courses offered in asynchronous, accelerated, or other
nontraditional formats. As a result, an institution that peer reviewers identified as having an

12
   HLC did not schedule a January 2010 advisory visit with AIU until October 2009— after we initiated this
inspection and discussed our preliminary concerns regarding AIU with HLC.
13
   AIU was accredited by the Southern Association of Colleges and Schools (SACS) prior to its accreditation by
HLC.

                                                       16
“egregious” credit policy still meets the threshold of acceptability for accreditation by HLC.
HLC’s accreditation of AIU in light of the significant problems identified by the peer review
team calls into question whether the accrediting decisions made by HLC should be relied upon
by the Department.

HLC’s assertion that its peer review team identified a problem with only a “small percentage” of
AIU’s online upper-division courses is not supported by the AIU Team Report. The report does
not limit its conclusions to specific 9-credit, online, upper-division courses. Our review of
AIU’s 2009 online catalog indicates that all of the online, upper-division classes, representing
67% of all online undergraduate courses, were offered in the 9-credit format.



                  OBJECTIVES, SCOPE, AND METHODOLOGY


The objectives of this review were to determine:

   (1) What guidance HLC provides to institutions regarding program length and credit hours,
   (2) What guidance HLC provides to peer reviewers to assess program length and credit hours
       when evaluating institutions, and
   (3) What documentation HLC maintains to demonstrate how it evaluates institutions’
       program length and credit hours.

We notified HLC of our review on June 29, 2009, and began our fieldwork on
July 27, 2009. We conducted an exit conference on September 30, 2009.

We reviewed applicable laws and regulations related to the accreditation of institutions. We also
reviewed guidance that HLC provided to its institutions and to its peer reviewers. Specifically,
we reviewed the Handbook of Accreditation, Third Edition, the HLC Policy Book, and the Peer
Review Handbook. In addition, we reviewed the 2009 training materials for the Peer Review
Corps that HLC provided to us on a CD. We interviewed relevant HLC staff.

We reviewed HLC’s institutional files from a judgmental sample of institutions HLC has
accredited. We reviewed the most recent self-study reports, available supporting documents, and
team reports for six institutions seeking reaffirmation of accreditation. These institutions were:
Baker College, DePaul University, University of Minnesota-Twin Cities, Ohio State University,
Kaplan University, and the University of Phoenix. We selected two public, two private, and two
proprietary schools based on which institutions received the highest amounts of Title IV funding.
We requested a listing of all institutions that were accredited by HLC for the first time from
January 1, 2008 through June 1, 2009. We reviewed the self-study reports, available supporting
documents, and team reports for the two institutions that received the highest amounts of Title IV
funding— American InterContinental University and The Art Institute of Colorado.

We also requested a listing of all institutions with a final action on a substantive change request
from January 1, 2008 through June 1, 2009 as specified in 34 C.F.R. § 602.22(a)(2)(iii) through
(vi). We reviewed the substantive change requests and team reports for two institutions—
                                                 17
Hocking College which requested approval to begin offering Associate of Arts and Associate of
Science degrees and Western New Mexico University which requested approval to offer three
existing degrees online. Institutions are not required to submit self-studies when requesting
approval for substantive changes to their programs.

The Director of Legal and Governmental Affairs recommended that we review the files for
institutions going through the candidacy processes and provided us with the files for eight
institutions— Future Generations Graduate School, Global University, Harrington College of
Design, Phoenix Seminary, Saint Gregory the Great Seminary, Toyota Technical Institute at
Chicago, University of Advancing Technology, and Westwood College. The files for these eight
institutions contained team reports and correspondence between the institutions and HLC but did
not contain self-studies; therefore, we only reviewed the team reports and correspondence for
these institutions.

Our review was performed in accordance with the Quality Standards for Inspections, 2005, as
appropriate to the scope of the inspection described above. These standards were adopted by the
Council of the Inspectors General on Integrity and Efficiency in 2009.



                           ADMINISTRATIVE MATTERS


The audit control number for this report was changed from I13J0003 to X13J0003 for
administrative reasons. In accordance with the Inspector General Act of 1978, as amended, the
Office of Inspector General is required to report to Congress twice a year on the audits that
remain unresolved after six months from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you have any questions, please
contact W. Christian Vierling, Director of Evaluation and Inspection Services, at (202) 245-
6964.

Respectfully,

/s/

Wanda A. Scott
Assistant Inspector General
Evaluation, Inspection, and Management Services




                                              18
19
20
